 

IN THE

Supreme Court of the United States

GEORGE Q. RICKS,

Petitioner,
v.

STATE OF IDAHO CONTRACTORS BOARD, ET AL.,
Respondents.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE IDAHO COURT OF APPEALS

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,886 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on July 10, 2019.

C kay
Colin Casey Hégan

Wilson-Epes Printing Co., Inc.
